<html>
<title> - THE COMPREHENSIVE TEST BAN TREATY AND NUCLEAR NONPROLIFERATION</title>
<body><pre>[Senate Hearing 105-699]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-699


 
     THE COMPREHENSIVE TEST BAN TREATY AND NUCLEAR NONPROLIFERATION

=======================================================================

                                HEARING

                               before the

  SUBCOMMITTEE ON INTERNATIONAL SECURITY, PROLIFERATION, AND FEDERAL 
                                SERVICES

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 18, 1998

                               __________

      Printed for the use of the Committee on Governmental Affairs



                               <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 48-164 cc                   WASHINGTON : 1998
_______________________________________________________________________
           For sale by the U.S. Government Printing Office, 
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOHN GLENN, Ohio
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              JOSEPH I. LIEBERMAN, Connecticut
SAM BROWNBACK, Kansas                DANIEL K. AKAKA, Hawaii
PETE V. DOMENICI, New Mexico         RICHARD J. DURBIN, Illinois
THAD COCHRAN, Mississippi            ROBERT G. TORRICELLI, New Jersey
DON NICKLES, Oklahoma                MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania
             Hannah S. Sistare, Staff Director and Counsel
                 Leonard Weiss, Minority Staff Director
                       Lynn L. Baker, Chief Clerk

                                 ------                                

                                 ------                                

   SUBCOMMITTEE ON INTERNATIONAL SECURITY, PROLIFERATION AND FEDERAL 
                                SERVICES

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
PETE V. DOMENICI, New Mexico         RICHARD J. DURBIN, Illinois
DON NICKLES, Oklahoma                ROBERT G. TORRICELLI, New Jersey
ARLEN SPECTER, Pennsylvania          MAX CLELAND, Georgia
                   Mitchel B. Kugler, Staff Director
               Linda J. Gustitus, Minority Staff Director
                      Julie A. Sander, Chief Clerk



                            C O N T E N T S

                                 ------                                
                                                                   Page

Opening statement:

    Senator Cochran..............................................     1
    Senator Levin................................................     7

                               WITNESSES
                       Wednesday, March 18, 1998

John Holum, Acting Under Secretary of State and Director, Arms 
  Control and Disarmament Agency.................................     2
Spurgeon M. Keeny, Jr., President and Executive Director, Arms 
  Control Association............................................    16
Kathleen Bailey, Senior Fellow, Lawrence Livermore National 
  Laboratory.....................................................    22

                     Alphabetical List of Witnesses

Bailey, Kathleen:
    Testimony....................................................    22
    Prepared statement...........................................    53
Holum, John:
    Testimony....................................................     2
    Prepared statement...........................................    37
Keeny, Spurgeon M., Jr.:
    Testimony....................................................    16
    Prepared statement...........................................    45



     THE COMPREHENSIVE TEST BAN TREATY AND NUCLEAR NONPROLIFERATION

                              ----------                              


                       WEDNESDAY, MARCH 18, 1998

                                     U.S. Senate,  
                Subcommittee on International Security,    
                     Proliferation, and Federal Services,  
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, in room SD-342, 
Dirksen Senate Office Building, Hon. Thad Cochran, Chairman of 
the Subcommittee, presiding.
    Present: Senators Cochran, Stevens, Glenn, and Levin.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. The Subcommittee will come to order.
    I would like to welcome everyone to today's hearing of the 
Governmental Affairs Subcommittee on International Security, 
Proliferation, and Federal Services.
    Today's topic is the Comprehensive Test Ban Treaty and 
Nuclear Nonproliferation.
    The White House working group on the Comprehensive Test Ban 
Treaty has listed seven reasons for ratification of the CTBT. 
Five of the reasons deal with nuclear nonproliferation.
    Today we will examine each of these five arguments, trying 
to determine the treaty's effect on nuclear weapons 
proliferation.
    The witnesses who will assist us in this undertaking are 
John Holum, Director of the Arms Control and Disarmament Agency 
and Acting Under Secretary of State for Arms Control and 
International Security Affairs, who testified before this 
Subcommittee last year; Spurgeon Keeny, president of the Arms 
Control Association; and Dr. Kathleen Bailey, a senior fellow 
at Lawrence Livermore National Laboratory and formerly the 
assistant director for nuclear and weapons control at ACDA.
    Secretary Holum, we have your prepared statement. We thank 
you for that and it will be printed in the record in full.
    We invite you to make any comments or statements you think 
will be helpful to our Committee's understanding of the issue 
before us.
    You may proceed.

TESTIMONY OF JOHN HOLUM,\1\ ACTING UNDER SECRETARY OF STATE AND 
         DIRECTOR, ARMS CONTROL AND DISARMAMENT AGENCY

    Mr. Holum. Thank you, Mr. Chairman. I will have only a 
brief opening statement so we can get to your questions.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Holum appears in the Appendix on 
page 37.
---------------------------------------------------------------------------
    I want to thank the Subcommittee for holding hearings on 
the Comprehensive Test Ban Treaty and I salute your leadership 
on what is a critical issue, both the test ban in particular 
and nonproliferation, more generally.
    At its very foundation, I believe that the Comprehensive 
Test Ban Treaty overwhelmingly serves our national interest and 
I would like to take a few minutes to describe why that is 
true.
    First, by constraining the development of more advanced 
nuclear weapons by the declared nuclear powers, the CTBT 
essentially eliminates the possibility of a renewed arms 
competition such as characterized the Cold War. Without the 
ability to conduct nuclear explosive tests, all five declared 
nuclear weapon states will be effectively frozen at the current 
levels of weapons development. A 50-year spiral of escalation 
will be ended and the strategic arms reduction process will be 
bolstered.
    The United States is currently in a position to reap 
maximum security benefits from such a freeze. Prompted by the 
Congress, we have effectively left the test business. The last 
U.S. nuclear test explosion was in 1992. We have no plans and 
no military requirements to test. All the more reason then to 
hold others to the same standard we already observe.
    Second, the CTBT is a nonproliferation treaty. Even if a 
non-nuclear weapon state was able to assemble a simple fission 
weapon, the CTBT would force it to place confidence in an 
untested design. The design of a two-stage thermonuclear weapon 
is even more complicated and the confident development of such 
a weapon even more dependent on test data.
    Some observers rightly point out that the bomb used in 
Hiroshima was never tested. Remember that we had to dig a hole 
under a B-29 bomber to load it aboard. It would be a challenge 
to say the least for any country, without explosive tests, to 
design nuclear weapons in the sizes, shapes and weights most 
dangerous to us, compact weapons deliverable in long-range 
airplanes and missiles, or very small, low-yield nuclear 
devices to be used by terrorists during regional conflicts.
    Third, quite apart from the sheer technical obstacles to 
nuclear weapon development posed by the test ban, the existence 
of the treaty will strengthen international nonproliferation 
standards and the Nuclear Non-Proliferation Treaty regime.
    CTBT ratification is critical to our ability to effectively 
enforce the NPT's global nonproliferation standards which 
discourage most states from even considering nuclear weapon 
programs. Not all states feel bound by norms or treaty 
obligations. Even states that appear to be complying with the 
legal obligations of the NPT may go quite far in pursuit of 
nuclear weapons capabilities.
    So, a challenge for the United States is to insist on 
strict compliance by the non-nuclear weapon states with both 
the letter and the spirit of the NPT. That requires a united 
world, with the means to isolate and sanction those who do not 
respect the law. It requires a strong global commitment to the 
NPT, so countries will be prepared to negotiate new agreements 
with the International Atomic Energy Agency incorporating the 
strong new safeguards we finally achieved last year.
    Consider the potential proliferation consequences of an 
extended delay in our CTBT ratification. Such a delay would 
likely open the door to postponements by Russia and by China. 
These could be seen as repudiations of the commitments made at 
the NPT Extension Conference and during the test ban 
negotiations themselves.
    It risks sending the message that the weapon states insist 
on perpetuating indefinitely their Cold War reliance on nuclear 
arms. We would effectively undermine our own efforts to 
persuade the international community to join us in insisting on 
strict compliance with the NPT, and in the process our failures 
on CTBT could subvert a good and effective NPT regime.
    The fourth reason to ratify the test ban is that it is 
effectively verifiable. The United States successfully fought 
for tough verification provisions in the negotiations and would 
not have signed the treaty if we were not satisfied on this 
score. Indeed, the CTBT will strengthen our means to monitor 
nuclear testing worldwide.
    Our judgment that the treaty is effectively verifiable 
reflects the bottom line conclusion that U.S. nuclear 
deterrence would not be undermined by any nuclear testing that 
the United States might fail to detect. It further reflects our 
belief that the treaty will effectively deter violations in 
light of the significant possibility of detection, in 
combination with the high political cost if a violation is 
detected.
    Moreover, the treaty's verification regime, along with our 
national intelligence means and diplomatic efforts, will limit 
an evader's options and provide us with the means to take 
prompt and effective counter action should we suspect a 
violation has occurred. In sum, we believe that the benefits of 
the treaty to U.S. national security clearly outweigh the 
potential costs and likelihood of potential violations.
    We would be concerned about the possibility of any 
violation, even a test with a nuclear yield of a few pounds. 
Quite apart from the potential military significance of such a 
test, it would have serious political consequences and would 
warrant a strong response.
    Remember that with or without the CTBT, monitoring the 
nuclear related activities of the nuclear powers and potential 
proliferators will continue to be a high priority job of the 
intelligence community.
    That brings me to the fifth reason to ratify the treaty. It 
will improve our nuclear test monitoring capabilities.
    The CTBT augments the current national technical means for 
monitoring worldwide nuclear testing with additional tools and 
data not previously available to the United States. It is a net 
plus.
    The CTBT establishes global networks of four different 
kinds of sensors--seismic, hydroacoustic, radionuclide and 
infrasound--that can detect explosions in different physical 
environments. These networks, made up of 321 monitoring 
stations, are called the International Monitoring System.
    Data will flow in continuously from the IMS. Some of this 
data will be recorded at stations in sensitive parts of the 
world to which we would not otherwise have access. Consider, 
for example, that the IMS includes 31 monitoring stations in 
Russia, 11 in China and 17 in the Middle East.
    The CTBT permits any party to request an on-site inspection 
to clarify whether or not a violation has occurred, and allows 
for the use of a range of technologies during that inspection 
to gather any facts which might assist in identifying the 
possible violation. With the assent of the CTBT decision-making 
body, the executive council, the United States would thus be 
able to ensure that ambiguous evidence is further investigated.
    The treaty also provides the legal basis and an 
international forum with which to promote and enforce a global 
end to nuclear testing.
    We had a demonstration of some of these capabilities last 
summer, Mr. Chairman, in the Kara Sea near a former Soviet 
nuclear testing facility where there had been ongoing activity. 
Seismic sensors detected an event. This raised red flags about 
potential tests in the area so we began collecting and 
analyzing data.
    The event, with a seismic signal equivalent to about 1/10th 
of 1 kiloton, was detected by several IMS stations in Russia, 
Norway, Sweden and Finland. Our intelligence community could 
confidently locate the event in the Kara Sea, even though a 
major seismic station in the region was out of commission.
    After analysis, we were satisfied that there was no nuclear 
explosion, based solely on remote sensing and study. If the 
treaty were in force we could, of course, choose to use its on-
site inspection regime or consultation and clarification 
procedures if there were similar incidents.
    The CTBT will also allow us to maintain a safe and reliable 
nuclear deterrent. In the summer of 1995 President Clinton 
announced safeguards which collectively recognize and protect 
the continued important contribution of nuclear weapons to U.S. 
national security. The first safeguard mandated the conduct of 
a stockpile stewardship program, for which there must be 
sustained bipartisan support from the Congress, to ensure a 
high level of confidence in the safety and reliability of our 
nuclear weapons stockpile.
    A program to maintain our nuclear deterrent under a CTBT 
was established by the Department of Energy in close 
collaboration with the Strategic Command and the Joint Staff of 
the Department of Defense. It builds on DOE's rigorous program 
of stockpile surveillance and component testing with more 
sophisticated laboratory experimentation and advanced 
computations. Its point of departure is a rich database of over 
1,000 past nuclear weapon tests that characterize the operation 
of our weapons and will serve as a benchmark for analyzing the 
operation of those weapons in the future.
    The program has earned the confidence of our military 
leaders, independent weapon scientists, and the directors of 
the three nuclear weapon laboratories. During a February, 1998 
visit to Los Alamos National Laboratory, President Clinton was 
joined by the laboratory directors, Dr. Browne of Los Alamos, 
Dr. Robinson of Sandia and Dr. Tarter of Lawrence Livermore, 
who affirmed their confidence that the stockpile stewardship 
program will enable us to maintain America's nuclear deterrent 
without testing.
    Moreover, in the unlikely event doubts about our ability to 
maintain the arsenal under CTBT arise at some point in the 
future, the treaty provides for a withdrawal from the treaty if 
a party decides that its supreme national interests are 
jeopardized. President Clinton has already stated that the 
safety and reliability of our nuclear weapons is a supreme 
national interest.
    And, if our nuclear deterrent cannot be certified, the 
President, in consultation with the Congress, has made it clear 
that he would be prepared to withdraw from the treaty in order 
to conduct whatever testing might be required.
    But, as we consider the state of our nuclear weapons, I am 
pleased to report that the administration forwarded to the 
Congress on February 12, 1998 the second annual certification 
from the Secretaries of Defense and Energy that the nuclear 
stockpile remains safe and reliable. This confirms that the 
United States will enter the CTBT regime with a proven, well-
tested arsenal.
    If we believe in the merits of the test-ban treaty, then 
the issue before us is really American leadership of the world. 
The United States needs to promote the CTBT's entry into force, 
not complicate it. Our ratification will encourage other 
ratifications, just as U.S. ratification of the chemical 
weapons convention facilitated its approval by Russia, China, 
Pakistan, and Iran. The most effective means of moving 
reluctant states is to make them feel the sting of isolation on 
this issue, not to provide them with the cover of United States 
inaction.
    Mr. Chairman, I have tried to highlight for the 
Subcommittee the reasons the CTBT is in the national security 
interests of the United States. Its value has led four former 
chairmen of the Joint Chiefs of Staff--Generals John 
Shalikashvili, Colin Powell, David Jones, and Admiral William 
Crowe--to endorse the treaty. And, significantly, it enjoys 
overwhelming public support with some 70 percent of the people 
favoring a treaty to prohibit further nuclear explosions 
worldwide.
    At its very core, here is what I suggest the CTBT issue 
comes down to: The nuclear arms race is over; arsenals are 
shrinking; our dramatically fewer remaining weapons can be kept 
safe and reliable by other means; we don't need tests; 
proliferators do; and the American people overwhelmingly want 
testing stopped.
    Under these circumstances, I think we should all agree that 
what the world needs now is not more nuclear explosions; 
rather, what it needs is more American leadership for another 
strong tool we can use to rein in the nuclear danger.
    Mr. Chairman, I want to thank you for your and your 
Subcommittee's time and consideration. This concludes my 
prepared remarks, and I would be happy to answer your 
questions.
    Senator Cochran. Thank you very much, Mr. Holum. Again, we 
appreciate very much your being here today and your assistance 
to our Subcommittee.
    After discussing the first reason, as you see it, that the 
administration negotiated and signed the Comprehensive Test Ban 
Treaty, which was to establish a freeze, in effect, on any 
further develop- 
ments by the declared nuclear weapon states, you talk about the 
fact and in your statement describe the fact that, in your 
judgment, the CTBT is a nonproliferation treaty. It will erect, 
you say, a further barrier to the development of nuclear 
weapons by states hostile to our interests and others.
    Isn't that a hope rather than a fact? How does any 
provision in the CTBT restrain the development of a rogue 
weapons program in some country that does not have nuclear 
weapons at this time? If that state is determined to develop a 
nuclear weapon, can it do so without testing?
    Mr. Holum. Actually, I would add an element to your 
question, because obviously a country can stay outside the 
treaty, and then it could conceivably proceed with testing. But 
even in those circumstances, I think the establishment of a 
strong international standard such as we have against nuclear 
weapons themselves in the nonproliferation treaty, has a 
constraining influence on non-members.
    There are countries who would have been able to carry out a 
nuclear test program and a declared nuclear program during the 
lifetime of the NPT who have not. And I think part of the 
reason they haven't is because they are aware that the 
international community is opposed to that kind of activity and 
they would be isolated in a variety of ways. So I think even 
for non-members it has a constraining influence.
    Now, for participants, it is possible to develop a simple 
fission device without testing. Certainly that could be done. 
At the same time, the ability to develop a boosted weapon that 
could be reduced in size and delivered in the ways I described 
earlier would be much harder. I think the experts would say 
that, without testing, it would very likely be an impossible 
task.
    Similarly, the ability to design a two-stage, thermonuclear 
device would be a challenge beyond the reach of countries 
without testing.
    Senator Cochran. You mentioned the CTBT has now been signed 
by 150 countries, including the five nuclear weapon states. 
Have any countries at this time ratified the treaty?
    Mr. Holum. There are as of now, 10 countries that have 
ratified.
    Senator Cochran. Have either Russia or China ratified the 
treaty?
    Mr. Holum. No, they haven't.
    Senator Cochran. In connection with Russia and China, we 
had testimony at hearings last year that both countries have 
come into the possession of advanced supercomputers that have 
the capacity to help improve the lethality of nuclear weapons 
and missile systems. In that connection, has the evidence of 
that kind of activity been persuasive to the administration 
that it is unlikely that either Russia or China would cease and 
desist from improving the quality and maybe even the quantity 
of certain types of its most advanced nuclear weapons, even 
with the CTBT?
    Mr. Holum. I think it is unlikely. I think all countries, 
including the United States, would be facing a very daunting 
challenge in trying to develop significant improvements in the 
character of their weapons, even with supercomputing 
capabilities.
    Let me put this in context. We are aiming for a 100,000 
million theoretical operations per second computing capability 
in our supercomputer initiative as part of our Stockpile 
Stewardship Program. The kinds of computers that are being 
considered in the context of China and Russia are between 2,000 
and 7,000 as compared to 100,000 MTOPS.
    Even with that computing capability, dramatically improved 
from where we are now, we won't be able to and don't expect to 
go beyond validating what we have done in the past, drawing on 
the data from 1,000 nuclear tests. We won't be able to develop 
new designs even at our advanced stage. So the likelihood is 
very low that Russia or China at a much lesser level of 
development, drawing on data from fewer tests, would be able to 
do that.
    Senator Cochran. I have some other questions, but at this 
time I am going to yield to my good friend and colleague from 
Michigan, the Ranking Member of the Subcommittee, Senator 
Levin, for any questions or comments he might have.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Mr. Chairman, and thank you for 
holding this hearing. It is a very important subject. I wish 
the other committees that have jurisdiction would hold hearings 
on this subject. It would be very useful in terms of moving 
this along either to ratification or rejection, hopefully 
ratification from my perspective. But it is important that the 
hearings take place, and, Mr. Chairman, in leading the way and 
having this hearing I think you are performing a really 
important service. And, again, whichever side of the debate one 
is on, I think it is important that these issues be explored so 
the Senate can exercise its will.
    From my point of view, this treaty is clearly in the 
national security interest. More important, the past four 
Chairmen of the Joint Chiefs of Staff have so stated. This 
treaty really carries out the goal of Republican and Democratic 
administrations since Dwight Eisenhower. The people strongly 
support it. Our uniformed military strongly support it with the 
safeguards that Mr. Holum has talked about. And I would hope 
that the Senate would hold the necessary hearings so that we 
can have a ratification debate and hopefully ratify it.
    One of the points that Mr. Holum has talked about is the 
connection between the Nuclear Non-Proliferation Treaty and 
this treaty. We urged the extension of the NPT, the Non-
Proliferation Treaty, in 1995, and one of the arguments that we 
made and the promise that we made was that nuclear weapon 
states, led by us, would complete a comprehensive test ban 
treaty in the next year. And we did that.
    The argument that we made to the states that we were urging 
to agree not to acquire nuclear weapons and not to follow the 
lead of nuclear weapon states--in other words, to reject 
nuclear weapons for their own inventories--that argument was 
bolstered by our promise that we would support a comprehensive 
test ban treaty.
    The Non-Proliferation Treaty is vital to our own security. 
We have supported it here in the Senate. If we don't carry out 
a commitment that we made to the signatories of that treaty and 
the people who agreed to extend that treaty, it seems to me we 
undermine our credibility in arguing for its extension. We 
cannot be put in that position. That would be a huge failure of 
leadership on our part.
    I have a number of questions, Mr. Holum, including one on 
the verification issue. You say that it is going to be easier 
for us to verify whether or not other countries have carried 
out a nuclear explosion. As I understand it, this is true in a 
number of ways, and I would like you to comment on it.
    Assuming we ratify the CTBT, then we would have the right 
to seek on-site inspections, which you referred to. If we don't 
ratify the treaty, is it correct that we do not have the right 
to make that request?
    Mr. Holum. That is correct.
    Senator Levin. All right. You have talked about a number of 
monitoring stations. The total number again?
    Mr. Holum. Three hundred and twenty one.
    Senator Levin. There is a great deal of data that comes 
from those monitoring stations. And is it correct that if we 
ratify, we have access to that monitoring data, but if we don't 
ratify, we don't?
    Mr. Holum. That is true in part. Some of the data would 
probably be available, for example, auxiliary seismic stations 
that are, for example, posted on the Internet. We would have 
that information, but not the data coming from the formal 
International Monitoring System.
    Senator Levin. How much of that data is posted on the 
Internet?
    Mr. Holum. I would have to get a specific answer to that 
for you. The regime will add roughly 200 additional seismic and 
other stations to the overall monitoring system that we do not 
have as of now. So that is an order of magnitude, but I can 
give you some more specifics.
    Senator Levin. Would you also submit for the record 
statements of prior presidents that might be available to you? 
We may already have them, but I cannot find them readily. If 
you could make sure that this Subcommittee has them, it would 
be helpful.
    Mr. Holum. Certainly.
    Senator Levin. On the question of the safeguards, you made 
reference to safeguards, including the commitment of the 
President to use the supreme national interest clause in the 
event that the Defense Department or the Department of Energy 
could no longer certify that our nuclear inventory was secure 
and safe. Is that correct?
    Mr. Holum. Yes. It is a combination of the chairman of the 
Strategic Command, the Nuclear Weapons Council, and the heads 
of the three nuclear weapons laboratories.
    Senator Levin. That was my question. So that the heads of 
the labs have got to join in that certification?
    Mr. Holum. That is right.
    Senator Levin. Is that an annual certification?
    Mr. Holum. It happens annually. We just had the second one.
    Senator Levin. And which labs join in that certification? 
All the three labs that you mentioned?
    Mr. Holum. The three nuclear weapons labs.
    Senator Levin. And each of their directors must certify 
safety and security each year?
    Mr. Holum. That is right.
    Senator Levin. And if that isn't forthcoming, then at least 
this President has said that he would be prepared to use the 
supreme national interest clause to withdraw from the treaty?
    Mr. Holum. Yes. It would be in consultation with the 
Congress, obviously, and one of the questions, I suppose, that 
would be raised is: Is this a problem that testing would solve? 
But assuming that is the case, then this President has made 
clear he would be prepared to withdraw from the treaty and 
invoke the supreme national interest clause and conduct 
whatever tests were necessary.
    I would like to emphasize, too, that we don't expect that 
to happen because we have very high confidence in the quality 
of our weapons and in the capability of the Science-based 
Stockpile Stewardship Program.
    Senator Levin. In your prepared testimony and in your oral 
testimony, you made the point that a CTBT would help to 
preclude a new nuclear arms race and effectively freeze the 
level of current nuclear weapons technology among the declared 
nuclear weapon states. I think that has some obvious benefits 
for the United States.
    Can you elaborate on that statement?
    Mr. Holum. Yes. Maybe I could do it this way: We have 
conducted 1,000 nuclear weapon tests. That is hundreds more 
than any other country in the world has conducted. We have the 
most advanced computing capabilities in the world. We have the 
best labs in the world. We have the best diagnostic 
capabilities to evaluate and maintain the quality of our 
weapons, the safety and the reliability of our stockpiles.
    Under those circumstances, it seems to me a fairly obvious 
conclusion that we benefit to the extent that we can lock every 
country in the world, including ourselves, into place on the 
nuclear weapons learning curve, because we are at a better 
position than anyone else.
    Now, there is an obvious value to the United States of 
stopping the arms competition, at whatever state it is. But in 
the current circumstance, the United States, it seems to me, is 
in the best position to assure that our security will be 
protected, to the extent nuclear weapons can accomplish that, 
through the comprehensive test ban.
    Senator Levin. A question has been raised about the 
countries which have not ratified it--or have not signed it, to 
be more accurate, including India, Pakistan, and North Korea. 
Again, these are three countries that have not signed it or 
ratified it.
    Is it correct that the treaty provides for a conference of 
states parties 3 years after the treaty was opened for 
signature--so a conference presumably would then occur in late 
1999--in order to consider alternative options to facilitate 
early entry into force? And is it true that the only way we 
could participate in that conference is if we had ratified the 
treaty?
    Mr. Holum. That is correct. The conference is only among 
the countries who have ratified.
    Senator Levin. What is the advantage to us to participate 
in such a conference?
    Mr. Holum. Well, it is hard to imagine the United States, a 
leading advocate of nonproliferation and arms control in the 
world, not being present at a conference of that kind, that we 
would disqualify ourselves. But we obviously would want to be 
there in any case to exercise our right to participate in 
deciding what to do.
    This conference will happen if the treaty--or may happen if 
the treaty hasn't gone into force by September of 1999. Then, 
all the countries that have ratified will gather and plot a 
strategy to decide on a course of action. Some people have 
suggested they would consider something like provisional 
application or other steps that might move the treaty forward.
    The United States would be shut out of that process if we 
weren't a participant.
    Senator Levin. Finally, if we do not ratify, another 
possible consequence would be, would it not, that other nuclear 
weapon states that have unilaterally declared a moratorium on 
nuclear testing, such as Russia and China, would be more likely 
to resume testing?
    Mr. Holum. That is really my greatest fear, Senator. If the 
treaty does not enter into force, and particularly if the five 
nuclear weapon states don't ratify in the near term, it is 
quite possible to envision a circumstance where others would 
decide they didn't want to be bound by what are now only 
political commitments to a moratorium on nuclear testing. And 
that, in turn, could have very serious consequences, I think, 
for our nonproliferation efforts. And it is not so much the 
viability of the NPT itself. I don't think the Treaty is in 
danger of being repudiated because it is in the interests of 
the member countries. That was the argument we made in 1995. It 
is not a favor to us. It is a security instrument for all the 
member states.
    But, we are trying to strengthen that regime. We are trying 
to be the driving force behind effective enforcement of the 
Non-Proliferation Treaty. We want the international community 
to listen when we say it is time to sanction or be prepared to 
sanction North Korea, for example. We want them to listen to 
us.
    And if we are behind the curve, if we are slowing down the 
train on the Comprehensive Test Ban, and if testing has resumed 
because the United States failed to ratify, then I think our 
whole ability to effectively enforce nonproliferation standards 
will be undercut.
    Senator Levin. Again, Mr. Chairman, let me thank you for 
convening this hearing, and with Senator Glenn here, I also 
want to just add a thank you to him. He is, of course, the 
Ranking Member of the full Committee, and he has been such a 
strong leader in the nonproliferation effort as long as he has 
been here, that I am just glad he was able to join us here 
today.
    Thank you.
    Senator Cochran. Thank you, Senator, very much.
    Senator Glenn.
    Senator Glenn. Thank you, Mr. Chairman, and thank you, 
Senator Levin. We worked together on a lot of these things 
through the years, and I know you are going to continue to work 
on them, too, even though I won't be here next year.
    As I understand it, if we don't like what is going on with 
the treaty, we can withdraw on, what, on 90 days' notice?
    Mr. Holum. Six months, I believe.
    Senator Glenn. Six months' notice. Has the U.S. Strategic 
Command examined the implications of CTBT for national security 
and deterrence, in particular?
    Mr. Holum. Yes.
    Senator Glenn. What is their conclusion?
    Mr. Holum. The treaty has the endorsement of the Joint 
Chiefs of Staff. That obviously feeds up from the Strategic 
Command.
    Senator Glenn. OK. Strategic Command people also favor it, 
I presume, then.
    Mr. Holum. That is right, and as I mentioned earlier, the 
Strategic Command is involved in the annual certification 
process to make sure that the weapons in the stockpile will 
continue to perform.
    Senator Glenn. You have been before this Subcommittee many 
times, and it is good to see you here again today on this same 
subject. As far as capability of specific weapons, do we have 
any information at this time that any of the weapons in the 
current stockpile have given evidence of aging effects that 
could affect their safety or their reliability if they had to 
be used?
    Mr. Holum. No. The short answer is no. A longer answer is 
that the surveillance process of our weapons as part of the 
Stockpile Stewardship Program routinely uncovers questions that 
need to be answered, and we expect that to happen into the 
future--in fact, more so into the more distant future when the 
weapons have been around for 20 or 30 years.
    But what we find is that we are able to fix those problems 
either because they don't involve the physics package, through 
testing of non-nuclear components and replacement or repair, or 
through computational and other diagnostics if it does involve 
the physics package.
    So the experts will say there will be routine warts 
uncovered in the process, but they will be things we can repair 
and deal with. And if we can't, we can exercise supreme 
national interest.
    Senator Glenn. We all want to see that there is a high 
degree of confidence that the stockpile remains safe and it 
remains reliable. And there is a system in place to hopefully 
ensure that. Could you describe that system and what is 
consists of?
    Mr. Holum. Well, it is a pretty comprehensive program, and 
I would like to preface by saying that the testing that was 
done through all those 1,000 tests, very few of those were for 
safety or reliability. We tested weapons when we were in the 
process of designing new ones, but less so when we were in the 
process of making sure the old ones worked.
    Now we have fewer weapons. They have all been well tested. 
The most recent additions to the stockpile have been around for 
a decade at least, so we know these weapons very well.
    We have multiple labs that will stay in operation, nuclear 
weapons labs checking each other's work, so there will be peer 
review. There will be surveillance of the stockpile. Each year 
11 samples of each kind of weapons will be removed from the 
stockpile and dismantled and examined in great detail. One of 
the 11 will be removed permanently from the stockpile and 
basically autopsied, or given a very comprehensive review. The 
others will be checked.
    I understand the reason why they selected 11 is that if 
they do 11 each year, then they will have a 90 percent 
probability of catching problems that would affect 10 percent 
of the stockpile within 2 years. I have no idea how that is 
computed, but that is how it turns out.
    It can be testing, obviously, of the non-nuclear part, and 
replacement. There will be remanufacture of the nuclear parts 
as necessary because we will use up, through this process, a 
small number over time.
    Then, of course, you have, as you have mentioned, the 
certification process. Every year the people who basically rely 
on and have charge of the stockpiles will be called upon to 
certify their safety and reliability. So it is a very ambitious 
program. It will cost $4.5 billion a year for 10 years 
projected into the future.
    Senator Glenn. That sounds like a pretty comprehensive 
program.
    We also have a lot more confidence, I think, in our 
modeling, our computer modeling and so on, than we used to 
have. If you go back 12 or 15 or 20 years ago when we were 
first concerned about some of these matters and we were 
interested in passing the amendments or the Nuclear Non-
Proliferation Act of 1978 and some of those things that we 
worked on, we almost had to do testing to know what we were 
doing back in some of those days. And I think what has 
developed in the computer modeling field now, we have a great 
deal more confidence now in knowing what the outcome would be 
than we would have back in those days.
    Mr. Holum. I think that is right.
    Senator Glenn. Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Glenn. We appreciate 
very much your participation in the hearing and your previous 
active involvement and leadership in proliferation issues.
    I remember coming out to Cincinnati, as a matter of fact, 
the first hearing I ever chaired as a Member of this 
Subcommittee, to chair a hearing at your request to look at the 
situation at Fernald.
    Senator Glenn. You didn't know what you were triggering off 
then, and I didn't, either.
    Senator Cochran. We went right into a firestorm of public 
controversy. I recall that. We had more people at the hearing 
than we expected.
    Senator Glenn. Could I have 30 seconds?
    Senator Cochran. Yes, sir.
    Senator Glenn. Because that was really a seminal hearing if 
there ever was one. The people at Fernald had complained about 
some of the uranium dust and so on coming down over the area, 
and I didn't know that this was--I didn't know how serious it 
was or was not. But we decided we would have a hearing out 
there, and so we went out and Senator Cochran chaired the 
hearing--the community came in, and we had some other science 
people who came in, too, and we found out the situation there 
was far worse than we had thought it was going out. Instead of 
placating the people and coming back to Washington and 
forgetting it, it was what triggered off, literally--and I will 
make this a short story.
    What happened there in trying to clean up Fernald, we came 
back, had the GAO do a study of that area, and it came back in- 

dicting the whole process out there at that time. We got 
estimates out of the GAO report how much it would cost to clean 
up. We came back, and I got to thinking if it is that bad at 
Fernald, it can't be that bad at other places. Well, we found 
out Fernald was really better than many other places in the 
weapons complex, and we now have a stack, I think, probably, of 
GAO studies, maybe 3.5 or 4 feet high of the studies done 
through the years, and it went to the 17 major nuclear plants 
in 11 different states as part of the weapons complex.
    At that time, the best estimate was that to clean up the 
whole weapons complex it would cost somewhere, they estimated, 
between $8 and $12 billion. And you know what has happened to 
that estimate? Right now the estimate is that to do the job at 
all these different places and clean up the way they would have 
to be cleaned up, it is somewhere around $300 billion and 
between 20 and 30 years if we can figure out how to do it all 
eventually.
    We have places like Hanford--well, I won't say we will 
never get them cleaned up. It is going to be a major effort.
    Anyway, that is what was triggered off with that first 
little hearing in Cincinnati out there, and the costs have been 
going up ever since on this whole thing.
    Senator Cochran. Is that why you are leaving us and going 
into outer space? [Laughter.]
    Senator Glenn. No. I am going----
    Senator Cochran. A safer environment.
    Senator Glenn. If the schedule stays the same, I will be up 
on election day. I will go any place to get out of an election 
now. [Laughter.]
    Senator Cochran. The fact is that we are all interested in 
this subject, and I am learning as much as I possibly can about 
the effects, as other Members are, too, of the treaty on our 
efforts to try to control the proliferation of nuclear weapons 
and what relationship there may be to the efforts we are making 
with the NPT.
    This treaty is different in one respect, I am told, from 
any of the proposals that had previously been made by any other 
president. We hear the history of the initiative goes back to 
President Eisenhower where he recommended that a comprehensive 
test ban treaty be negotiated. But as I understand it, he 
didn't recommend that it be a zero-yield treaty, and even when 
other presidents who followed would recommend and--would have a 
moratorium from time to time--1958 to 1961, there was a 
moratorium on testing. But even during that, President Kennedy 
put in place four new nuclear devices that were available for 
use if needed.
    So President Clinton, as it turns out--if this is correct, 
and I want you to tell me whether it is or not--is the first 
president who has actually proposed and negotiated and signed a 
treaty with a zero-yield prohibition. Is that correct?
    Mr. Holum. I am not sure that is correct, but we can 
certainly provide that information for you. I don't know 
whether they had gotten to the point of talking about specific 
yields. It is certainly the case that during the moratorium 
under President Eisenhower, when he maintained he had a 
moratorium on nuclear tests, that he had authorized conduct of 
hydronuclear tests, or very small yields of a few pounds, in 
order to correct a problem that they had uncovered regarding 
one-point safety in some stockpile weapons. So it is true that 
he at least considered that hydronuclear tests of small yields 
would not violate a moratorium.
    On the other hand, we looked at that issue very closely 
during the course of the negotiations and basically concluded 
that a zero-yield treaty was in our interests, that you could 
not find among the nuclear weapon states a number for 
permissible activities that would treat all five the same 
unless you went into very large numbers, and then it wouldn't 
be a test ban treaty, it would be a threshold treaty with a 
lower threshold. But also, it would not be credible as a true 
comprehensive test ban if we didn't go to zero. And in some 
respect, although obviously there are huge problems of 
verification going down to zero, this is easier to verify than 
trying to decide whether a particular activity was above or 
below, say, 10 pounds of nuclear yield, which is a very 
challenging task. It is somewhat easier to determine that there 
was no nuclear yield.
    Senator Cochran. There is some statement that you made in 
your submission to the Subcommittee that at various stages in 
the negotiations, the five nuclear weapon states have honored 
some kind of moratorium or there has been, in fact, a 
moratorium from time to time over the past 8 years in testing. 
Have all five honored the moratorium as far as you know?
    Mr. Holum. Yes. Well, when they have said they were in a 
moratorium, we don't have any basis for believing that they 
conducted nuclear tests. Remember that both France and China 
continued nuclear testing, insisted on continuing nuclear 
testing until 1995 when they concluded their test series and 
decided they were prepared to go forward with the test ban. But 
they announced that they were testing. They didn't try to hide 
it.
    Senator Cochran. One other question concerns me about this, 
and it is the recent reports that you hear from Russia from 
some of the top military leaders saying that with the 
deteriorating capacity to defend their country in a 
conventional way, with the sad condition of equipment and 
armaments, not being able to pay armed forces personnel, 
housing conditions are deplorable, and all the other things you 
hear about, that their nuclear weapons are really the only 
deterrent that they have that is dependable. And if that is 
true, and then couple that with the fact that the new 
supercomputer access that they have at the weapons systems labs 
at Arzamas and other places that we have verified through 
hearings and testimony from witnesses, it seems that they may 
put more emphasis on the reliability of their nuclear deterrent 
than they ever had in the past, even with the START II and--
which they haven't ratified, and the things that they are doing 
under Nunn-Lugar to actually destroy some weapons and some 
weapon sites.
    But to what extent is that a problem? And would the 
Comprehensive Test Ban Treaty serve our national security 
interests given that situation in Russia today?
    Mr. Holum. Well, I think the test ban has a particular 
value in confining the Russians into thinking about what they 
should, at most, be thinking about, and that is to maintain the 
reliability of their existing stockpile. I have no doubt that 
they will conduct very ambitious efforts to maintain a 
stockpile that they feel is adequate for deterrent purposes. I 
think the numbers under any cir- 
cumstances are likely to come down, the numbers of their 
overall nuclear forces. I hope that will be within the confines 
of START II and START III to follow on. But they will want to 
maintain for the reasons you have indicated--and we have been 
reading the same reports--the reliability of their stockpile.
    It worries me, as I am sure it concerns you, that they seem 
to be placing more reliance on nuclear forces. It does not 
necessarily follow that they will be prepared to or would want 
to engage in a qualitative arms race that would require nuclear 
testing. What does follow is that they will invest considerable 
resources in maintaining their stockpile. And we have 
anticipated that they would. They have been very clear that 
they plan to.
    Senator Cochran. Well, we appreciate very much your 
testimony. Are there any other questions?
    Senator Levin. Just one, if I could, Mr. Chairman.
    Mr. Holum, during your testimony, you said in your 
presentation that CTBT is effectively verifiable. You said that 
the United States fought for tough verification provisions, and 
would not have signed the treaty if it were not effectively 
verifiable. Then you went on to describe what you mean by 
effective verification, including that there is no guarantee 
that we could detect and attribute all tests worldwide should a 
violation occur. You went on to say that there is a certain 
acceptable level of uncertainty. But you didn't describe the 
balancing that you and our administration went through in 
determining that these provisions would, in toto, leave us in a 
position where we could effectively verify and effectively 
deter violations. That is in light of the significant 
possibility of detection in combination with the high political 
costs if a violation is detected.
    I have tried to summarize your statement about effective 
verification. The reason I do that is a moment ago you used the 
term ``huge problem of verification.'' Here you were talking 
about it as an even greater problem where you have to verify a 
threshold. Still, on the generic issue, you talked about the 
huge problem of verification. And I want you now to tell me--
can we have a big problem of verification at the same time it 
is effectively verifiable? And if not, what did you mean by 
that reference?
    Mr. Holum. There is no question but what it is very 
difficult to detect nuclear explosions of very small size, down 
to a few pounds of yield or even hundredths of pounds of yield, 
in that range. But it is also a huge problem for anyone to gain 
any advantage, to gain any significant military value from 
tests that small.
    First of all, it is a hard problem to be able to conduct 
one that small. You would have to have a great deal of 
expertise in nuclear weapons and things like decoupling to have 
the explosion isolated from--the chamber walls. You would have 
to have expertise in containment, a variety of other things, to 
be able to keep the test small and evasive.
    Once you did that, the ``Jasons'' who have studied our 
nuclear stockpile have concluded that even a country as 
advanced and sophisticated as ours would need a series of 
tests, an extended series of tests in the sub-kiloton level or 
much larger, in order to make any significant improvements. So 
what we are talking about in terms of effective verification is 
basically two things: First, is the risk of detection and the 
difficulty of conducting evasive scenarios, the risk of having 
a larger yield than you thought, the risk of a whistleblower, 
the risk of some means of this coming to the attention of the 
international community; plus the political consequences and 
potential for sanctions if you are caught will deter countries 
from conducting even small tests. And, second, after analyzing 
this all very carefully, we have concluded that any test that 
we might not detect would not affect our ability to deter 
nuclear war, would not undermine our deterrent. So it wouldn't 
have significant military consequences for us.
    So there is no guarantee that we can detect every nuclear 
explosion that might occur. There is a guarantee under this 
treaty that we can protect our national security.
    Senator Levin. When you used the term ``huge problem'' 
relative to verification, you were referring then to that very 
small test that might escape detection that you believe would 
not be militarily significant?
    Mr. Holum. That is right. It is difficult to detect 
something of a very small size, but it is also very difficult 
to do and I think it is unlikely that it would happen.
    Senator Levin. Thank you.
    Mr. Holum. And if it did, it is unlikely it would have any 
significant consequences for us.
    Senator Cochran. Mr. Secretary, thank you very much for 
your assistance in our effort to understand the relationship 
between the Comprehensive Test Ban Treaty and nuclear 
nonproliferation. Thank you.
    Mr. Holum. Thank you, Mr. Chairman.
    Senator Cochran. Our next witnesses will be in a panel to 
discuss further the issue before us today. Spurgeon Keeny is 
president of the Arms Control Association. Dr. Kathleen Bailey 
is a senior fellow at Lawrence Livermore National Laboratory 
and formerly was Assistant Director for Nuclear and Weapons 
Control at the Arms Control and Disarmament Agency.
    We welcome you both and appreciate very much your 
attendance at our hearing. Mr. Keeny, we will call on you first 
and ask you to proceed. We have a copy of your statement, and 
it will be printed in the record in its entirety, and we ask 
you to make any summary comments that you think will be helpful 
to our understanding of this issue.

TESTIMONY OF SPURGEON M. KEENY, JR.,\1\ PRESIDENT AND EXECUTIVE 
               DIRECTOR, ARMS CONTROL ASSOCIATION

    Mr. Keeny. Thank you. Mr. Chairman, Members of the 
Subcommittee, I am honored to be here today at your invitation 
to present my views on the relationship between the 
Comprehensive Test Ban Treaty and nuclear nonproliferation. I 
particularly appreciate this opportunity to discuss this issue 
with you, an issue which I have been involved in in a number of 
capacities since 1948.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Keeny appears in the Appendix on 
page 45.
---------------------------------------------------------------------------
    As outlined in my prepared statement, my involvement began 
as an officer and civilian in Air Force intelligence, tracking 
the emerging Soviet nuclear weapons program, the first case of 
nuclear proliferation, and then as an active participant in the 
initial efforts of Presidents Eisenhower and Kennedy to 
negotiate a comprehensive test ban.
    Looking back on the past 50 years, I am indeed pleased that 
the CTBT has at last been completed and is now before the 
Senate for its advice and consent.
    Mr. Chairman, I would like to commend you and your 
Subcommittee for holding hearings on the impact of the CTBT on 
U.S. nuclear nonproliferation policy. This is the reason that 
the treaty is of great importance to U.S. security.
    As you requested, I will focus my remarks on the five 
specific reasons for ratification from the White House Working 
Group on the CTBT.
    First, I agree with their first reason: ``The CTBT will 
constrain the development of more advanced . . . weapons by the 
declared nuclear powers.'' In fact, as a practical matter, I 
believe it will prevent such developments by these States. By 
these developments, I mean not only radical new concepts such 
as the nuclear explosion pumped x-ray laser or pure fusion 
weapons, but also new designs for classical two-stage 
thermonuclear weapons with significantly different parameters 
from existing weapons.
    Even the very sophisticated research facilities and 
advanced supercomputers called for in the U.S. Stockpile 
Stewardship and Management Program will not permit the 
development, production, and deployment of such advanced new 
weapons in which responsible officials would have confidence. 
Pursuit of new designs would appear to be even more problematic 
in the case of other nuclear weapon states that will not share 
the luxury of the elaborate facilities available to the United 
States in its Stewardship Program.
    Within the U.S. Stewardship Program, one might make minor 
modifications in existing weapons designs to take into account 
changes in materials or manufacturing techniques which could be 
checked out by supercomputers and non-nuclear testing. However, 
to maintain high confidence in the U.S. stockpile, such 
modifications would have to be closely controlled and held to 
an absolute minimum. And there is no reason to think many such 
changes would be deemed necessary even over a very extended 
period of time.
    Now, all of this isn't to say that the CTBT can prevent 
scientists in the weapons laboratories in this country or 
abroad from thinking about new designs which might be of 
interest in the unlikely event that the test ban regime 
collapsed. It is indeed difficult, however, to imagine the 
circumstances in which responsible political, military, or 
scientific leaders in any nuclear weapon state would be 
interested in employing unproven designs in the absence of 
testing when a wide variety of highly reliable, proven weapons 
are already available in their arsenals.
    Second, I agree that ``The CTBT will strengthen the NPT 
regime and the U.S. ability to lead the global nonproliferation 
effort.'' Moreover, I believe the failure of the United States 
to ratify the CTBT promptly will seriously undercut U.S. 
ability to carry out its critical role in leading the global 
nonproliferation effort.
    The Nuclear Non-Proliferation Treaty, which constitutes the 
framework for the nonproliferation regime, is by its very 
nature discriminatory since it divides the world into nuclear 
weapons haves and have-nots. The treaty was based on the 
correct assumption that most countries are more concerned with 
preventing their neighbors and adversaries from acquiring 
nuclear weapons than with maintaining the option to acquire 
such weapons for themselves or, for that matter, with requiring 
the existing nuclear weapon states to divest themselves of 
weapons as a precondition. Nevertheless, serious concern about 
the treaty's discriminatory nature was, and remains, a divisive 
factor within the regime.
    Article VI of the NPT was included to obligate the nuclear 
weapon states ``to pursue negotiations in good faith on 
effective measures relating to cessation of the nuclear arms 
race at an early date and to nuclear disarmament.''
    When President Eisenhower initiated the first comprehensive 
test ban negotiations in 1958, he then saw it as the best hope 
to constrain both the nuclear arms race with the Soviet Union--
vertical proliferation--and the spread of nuclear weapons 
beyond the three countries that then possessed them--horizontal 
proliferation. President Kennedy shared these hopes and resumed 
the negotiations that had been recessed after the shoot-down of 
the U2 over Sverdlovsk. Unfortunately, these early negotiations 
failed to produce an agreement.
    A decade later, the NPT, which was successfully negotiated 
under President Johnson and ratified by President Nixon, 
provided a strong barrier to horizontal proliferation. The NPT 
also banned nuclear testing for all non-nuclear weapon parties 
to the treaty since they foreswore the development or 
acquisition of nuclear explosive devices.
    In these circumstances, the non-nuclear weapon states that 
were parties to the treaty looked on the continued nuclear 
testing by the nuclear powers as a constant reminder of the 
discriminatory nature of the NPT. They looked on progress in 
achieving a global comprehensive test ban as the most visible 
demonstration of the willingness of the nuclear weapon states 
to end the nuclear arms race. The global cessation of nuclear 
testing has become the litmus test of the seriousness of the 
nuclear weapon states to meet their obligations under Article 
VI of the NPT.
    When the NPT came up for renewal at its 25th anniversary 
conference in 1995, there was considerable dissatisfaction with 
the record of the nuclear weapon states in fulfilling their 
obligations under Article VI, particularly with regard to the 
nuclear test ban. The conference had to decide whether to 
extend the NPT indefinitely or for only a fixed period.
    In view of the significance of the decision, the conference 
sought approval of indefinite extension by consensus rather 
than the simply majority required by the treaty. This consensus 
was achieved by the adoption of a resolution of principles and 
objectives which contained many commendable generalizations but 
one very specific objective: The completion of a universal CTB 
Treaty no later than the end of 1996.
    To the surprise of many, the treat was completed on 
schedule, in large part due to the initiatives taken by 
President Clinton, and the CTBT was opened for signature on 
September 24, 1996. To date, 149 states have signed the treaty, 
including the five nuclear weapon states, and eight countries, 
by my count--soon to be joined by France and Britain--have 
ratified the treaty. However, most key countries, including 
Russia and China, as has been pointed out, will not move on 
ratification until the U.S. Senate acts.
    Third, I agree that ``The CTBT will constrain `rogue' 
states' nuclear weapons development and other states' nuclear 
capabilities.'' The treaty cannot by itself, however, prevent 
such states from obtaining a first generation nuclear weapons 
capability. When the CTBT enters into force with essentially 
worldwide support, including the five nuclear weapon states, an 
international legal norm against testing will have been 
established. While this could not prevent testing by a rogue 
state, the act of testing would, by violating a universal norm, 
put that state at odds with the entire international community 
and make it a prime candidate for serious sanctions.
    Technically, however, such a rogue state could develop a 
first generation nuclear weapon without testing. Such a weapon 
would probably be similar to the untested gun-type U-235 weapon 
that destroyed Hiroshima or the plutonium implosion weapon that 
had been successfully tested at Trinity prior to use against 
Nagasaki, or the early U-235 implosion weapons tested by China. 
Such weapons are known to have been developed without tests by 
South Africa and presumably by Israel and Pakistan as well.
    Such a rogue state would not, however, be able to go very 
far in optimizing or miniaturizing fission weapons and would 
certainly not be able to develop thermonuclear weapons without 
extensive testing or access to detailed plans and direct 
technical assistance from a nuclear weapon state that had 
successfully developed and tested them.
    Although the undeclared nuclear weapon states--India, 
Israel, and Pakistan--which presumably already have first 
generation weapons, are more experienced in the field, they 
would also not be able to develop thermonuclear weapons without 
testing or external assistance by a nuclear weapon State. If a 
state were a member of the NPT, such a program would, of 
course, be a violation of the NPT and would probably be 
revealed by the new, more intrusive IAEA inspection program, 
which can inspect suspicious sites.
    Fourth, I agree that ``The CTBT will improve America's 
ability to detect and deter nuclear explosive testing.'' Under 
the CTBT, the establishment of the International Monitoring 
System, with stations in Russia and China, and mandated 
procedures for on-site inspections of suspicious events will 
significantly supplement the already impressive unilateral U.S. 
system of national technical means with which the United States 
has successfully monitoring nuclear testing worldwide since the 
first Soviet nuclear test in August 1949.
    The International Monitoring System, when fully 
operational, is designed to have a worldwide detection 
capability down to about 1 kiloton, although I believe in 
geographic areas of special interest it will be considerably 
better than that. The IMS has the advantage that it will be an 
open international operation so that all parties to the treaty 
have access to the data and will not be solely dependent on 
United States conclusions, which are often based on data that 
the United States is not prepared to share and which some 
parties may perceive as biased. Moreover, the treaty 
establishes specific procedures to allow on-site inspections of 
suspicious events. The prospect of on-site inspections should 
act as a powerful deterrent since they would have a good chance 
of identifying even very small tests; and if the country where 
the event occurred rejected or obstructed the inspections, the 
action in itself would strongly suggest that the party in 
question was trying to hide a clandestine test. In making the 
case for inspections of a suspicious event, the United States 
can also present information from its powerful classified 
national technical means system that it would not be willing to 
share with the rest of the world on a routine basis.
    As discussed in more detail in my prepared statement, the 
powerful synergistic effect of U.S. National Technical Means 
capabilities and the International Monitoring System is well 
illustrated by the earthquake in the vicinity of Novaya Zemlya 
on August 16 last year. U.S. photo reconnaissance alerted U.S. 
intelligence agencies when it detected unusual activity at the 
Novaya Zemlya site in August, activity that in retrospect was 
probably associated with permitted subcritical experiments of 
the type the United States was conducting at the same time at 
the Nevada test site.
    Concern that it might be a nuclear test was eliminated when 
seismic data that became available within days determined it 
was an earthquake 130 kilometers from the test site beneath the 
floor of the Arctic Ocean. If the CTBT had been in force and 
the event had been close to the test site, the United States 
could have requested an on-site inspection and would certainly 
have had a strong case to obtain it.
    In judging the effectiveness of a detection system, it must 
be recognized that every system that depends upon technical 
measures has a threshold below which signals are lost in the 
background noise. While in the case of the CTBT one can, with 
high confidence, detect tests down to 1 kiloton equivalent and 
with less confidence to considerably lower levels, there will 
always be a range of yields above zero that cannot be detected.
    Despite these technical limitations, the verification 
system can still be correctly defined as effective because the 
tests below the threshold do not constitute a security risk to 
the United States. Clandestine testing below the threshold by 
the nuclear weapon states would not permit development of 
radically new or significantly improved nuclear weapons. In the 
case of non-nuclear weapon states, tests below the threshold 
would not contribute to the production of a first generation 
primitive weapon, which would either be tested at full yield or 
be produced without testing since little would be gained by the 
testing of such weapons at very low yields.
    I should add that, in addition to detection by sensors 
recording the event itself, a potential clandestine tester 
would have to take into account the possibility that his 
actions would be revealed by human sources or by a failure of 
communications security. Such sources of information, although 
unquantifiable, should have a significant deterrent effect on 
low-yield clandestine testing.
    Fifth, I agree that ``CTBT ratification by the United 
States and others will constrain non-signatories from 
conducting nuclear tests.'' Moreover, I believe ratification is 
critical to the U.S. efforts to maintain an effective 
leadership role in maintaining and strengthening the nuclear 
nonproliferation regime, which is the principal constraint on 
testing by non-nuclear weapon states.
    It has been suggested that the Senate does not have to 
hurry in considering the Comprehensive Test Ban Treaty since 
India, one of the 44 countries that must ratify the treaty for 
it to enter into force, has stated emphatically that it will 
not sign the treaty. The urgency for the U.S. action derives 
not only because our leadership role will probably stimulate a 
wave of ratifications, including Russia and China, but also 
because it will give the United States a seat at a special 
conference that can be called after September 24, 1999--3 years 
after the treaty was opened for signature--to decide what 
measures can be taken to accelerate the ratification process 
and facilitate early entry into force of the treaty. If Indian 
participation does not appear to be forthcoming, the conference 
can recommend a number of ways to bring the treaty into force 
provisionally. If the United States fails to ratify the treaty 
before September 24, 1999, it will only be able to participate 
in the conference as an observer, without a vote or voice in 
these efforts to bring into force a treaty in which it has 
played such a central role over the years.
    In the year 2000, there will be a major NPT Review 
Conference. The main focus of attention at that conference will 
be on the extent the nuclear weapon states have met their 
obligations under Article VI and implemented the Principles and 
Objectives Resolution that accompanied the indefinite extension 
of the NPT. If the United States has ratified the CTBT and the 
treaty is moving toward entry into force, the United States 
will be in a very strong position to press the conference to 
support its other efforts to strengthen the nonproliferation 
regime with respect to potential proliferators. But if the 
treaty has been rejected or is still before the Senate, the 
United States will be strongly attacked at the NPT Review 
Conference as the barrier to an effective nonproliferation 
regime and will lose much of the leadership role it has 
rightfully achieved over the years.
    In summary, I believe the Comprehensive Test Ban Treaty is 
an extremely important component of the U.S. strategy to 
establish a permanent global nonproliferation regime. I urge 
the Senate to act promptly to give its advice and consent to 
the treaty in order to reinforce the leadership role of the 
United States in extending and strengthening the 
nonproliferation regime.
    Thank you, and I am, of course, willing to answer questions 
on my testimony or any other part of this issue.
    Senator Cochran. Mr. Keeny, thank you so much for your 
presentation to our Subcommittee.
    We have Dr. Kathleen Bailey with us, and unless Senator 
Stevens has any questions or comments at this time, I am going 
to call on Dr. Bailey to proceed.
    Senator Stevens. Please do.
    Senator Cochran. We have your statement. It will be printed 
in the record in full, and we encourage you to make whatever 
comments you think would be helpful to the Subcommittee.

   TESTIMONY OF KATHLEEN BAILEY,\1\ SENIOR FELLOW, LAWRENCE 
                 LIVERMORE NATIONAL LABORATORY

    Ms. Bailey. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear before you and Members of the 
Subcommittee to address the relationship between the nuclear 
nonproliferation regime and the Comprehensive Test Ban Treaty, 
CTBT. The views I express today are my own and not necessarily 
those of any institution.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Bailey appears in the Appendix on 
page 53.
---------------------------------------------------------------------------
    Let me start with my conclusion, which is that the CTBT 
fails the cost/benefit test. Specifically, it will not 
accomplish the nonproliferation goals as set out for it by the 
administration and, at the same time, the treaty will seriously 
degrade the U.S. nuclear deterrent and, thus, will have a high 
national security cost. I would like to take each of the five 
principal nonproliferation goals as set out by the 
administration for the CTBT and give you the bottom-line 
conclusion that I have made about them.
    Goal No. 1 that I will discuss is that the CTBT is alleged 
to constrain nuclear proliferation. The CTBT will not 
meaningfully constrain nations that want to acquire a workable 
nuclear weapons design. A state that wants to produce a nuclear 
weapon can do so without nuclear testing. As acknowledged by 
the two previous speakers, the Hiroshima bomb as well as South 
Africa's arsenal were untested devices.
    Furthermore, non-boosted, implosion-type weapons may be 
designed with high confidence, without testing.
    Testing is not essential today as it was in the past for 
proliferating nations because the information related to 
nuclear weapons is now widespread. University courses, the 
information superhighway, advanced computers, new materials, 
and production technologies--all of these enable a nation to 
design with high confidence a weapon that would in the not-so-
distant past have been considered relatively sophisticated.
    Now, critics may argue that new proliferators would want to 
test a device design, just as the United States usually does, 
before stockpiling it. However, there are important differences 
between proliferators' needs, perspectives, and targeting 
requirements versus those of the United States and Russia. 
During the Cold War, both sides focused on targeting one 
another's military sites. A premier objective has been pinpoint 
strikes against small targets such as silos, rather than 
cities. This dictated high-performance delivery systems, which, 
in turn, required tight parameters on the allowable weight, 
size, shape, safety measures, and yield.
    Now, by comparison, proliferant nations are not likely to 
target silos. Instead, they are likely to target cities. Their 
delivery vehicles may be ships, boats, trucks, or Scud-type 
missiles. Proliferators may not care whether the yield they 
obtain is exact. They may not have tight restrictions imposed 
by advanced delivery systems or safety standards like those 
that we and Russia have. And they are unlikely to have highly 
complex weapons designs. Furthermore, proliferators may have an 
entirely different standard for reliability. All of this boils 
down to one thing: It is quite feasible for a nation to develop 
a device that will work as long as it does not matter if the 
yield is exactly known and there are no exacting specifications 
which must be met.
    Goal No. 2 is to save the nonproliferation regime. I 
contend that the NPT is at risk and ratification of the CTBT 
will not save the NPT. There are at least three major 
challenges to the Non-Proliferation Treaty which threaten to 
unravel it: The demand for a timetable for zero nuclear 
weapons; growing dissatisfaction with U.S. technology transfer 
restrictions; and erosion of NPT's contribution to security.
    Now, I have outlined detail on all three of these in my 
written testimony, but verbally I will address only one of them 
now.
    A contradiction exists, as Spurgeon Keeny pointed out, in 
that the nuclear weapon states pledged in the NPT that they 
would work in good faith toward total nuclear disarmament. 
Simultaneously, however, the nuclear weapon states have 
continued to rely on nuclear deterrence for security, and they 
have said that disarmament is a long-term rather than a near-
term goal.
    At the NPT Review and Extension Conference of 1995, the 
United States and others agreed to negotiate a CTBT, touting it 
as a step toward total nuclear disarmament. Now, however, NPT 
parties are in the process of discovering that the CTBT does 
not constitute a step toward disarmament that they had thought 
it was. This is because nuclear weapon states are not by any 
means abandoning nuclear deterrence but are instead taking 
steps to assure that their stockpiles will remain safe and 
reliable and, therefore, usable despite the testing ban. The 
U.S. Stockpile Stewardship Program is designed to defeat 
nuclear erosion. Thus, the goal set for the CTBT by many 
nations is effectively undermined by a successful Stockpile 
Stewardship Program.
    It is the dependence of the nuclear weapon states on 
nuclear deterrence, despite the NPT commitment to disarmament, 
that is the source of greatest danger to the non-proliferation 
treaty, and this conflict will persist regardless of whether 
the CTBT is ratified by the United States or not.
    Goal No. 3, establishing an international norm, I will also 
gloss over fairly briefly because I view it as pretty 
inconsequential. History is replete with examples when norms 
and even legally binding treaties, which are a much stronger 
constraint, have failed to inhibit nations. For example, the 
Biological Weapons Convention set up an international norm 
against biological weapons production, possession, use, but we 
have two examples today of nations that we know are pursuing 
and have in their hands biological weapons. One is Iraq; the 
other is Russia. And we don't know how many others. So 
international norms come and go without much effect.
    Let's turn to goal No. 3. The administration has declared 
that the CTBT is effectively verifiable. Let me define what I 
mean by effective verification, and I think it is a generally 
accepted definition. It means ``high confidence that militarily 
significant cheating will be detected in a timely manner.'' In 
the case of the CTBT, of course, this would mean that you are 
highly confident that you will be able to detect within hours 
or a few days of the event any nuclear testing which will 
provide the test with significant, militarily significant 
information.
    Now, there are two questions that we need to answer in 
looking at the CTBT. First is: What yield nuclear test give 
you, or gives the tester, militarily significant information? 
The second question is: Can the CTBT verification system detect 
to that level?
    Now, I have taken the conservative approach and said that 
the basic cutoff point of militarily useful testing is 500 
tons, and I selected that number because of the attachment that 
you will see in my testimony. This colorful table was put 
together in 1995 by the three nuclear weapons laboratories for 
presentation to the administration to explain why our nuclear 
weapons designers would like to be able to continue testing at 
a level of 500 tons under the CTBT. So we assume for the sake 
of argument that a very low number, 500 tons--or it could, of 
course, be 10 kilotons or some other higher number, but let's 
assume 500 tons is militarily useful.
    The International Monitoring System of the CTBT is expected 
to provide the ability to detect, locate, and identify non-
evasive testing of 1 kiloton or greater. Thus, it is clear that 
the monitoring system will not be able to detect 500 tons or 
more, up to a kiloton.
    However--and this is a very important point--a Nation may 
conduct nuclear tests evasively which would allow several 
kilotons to be tested with little or no risk of detection. One 
method by which this might be done is decoupling--that is, 
detonation of the device in a cavity that can reduce the signal 
by as much as a factor of 70. This means, for example, that a 
kiloton explosion would be made to look seismically like a 14-
ton explosion fully coupled. A 10-kiloton explosion would look 
only like a 0.14-kiloton explosion.
    Let me give an example, an interesting one. The United 
States conducted two nuclear tests in the Tatum salt dome 
located at Chilton, Mississippi. Sterling, the test conducted 
on December 3, 1966, had a yield of 380 tons, but the apparent 
seismic yield was only 5.3 tons. Thus, you can see that the 
salt dome decoupling effect made the test look much, much 
smaller.
    Now, in his testimony, John Holum said that decoupling was 
a sophisticated measure, that it would be difficult for 
countries to achieve. That is patently untrue. I would like to 
quote from a document that I got recently from an unclassified 
intelligence community report. It says, ``The decoupling 
scenario is credible for many countries for at least two 
reasons: First, the worldwide mining and petroleum literature 
indicates that construction of large cavities in both hard rock 
and salt is feasible, with costs that would be relatively small 
compared to those required for the production of materials for 
a nuclear device; second, literature and symposia indicate that 
containment of particulate and gaseous debris is feasible in 
both salt and hard rock.''
    So I would suggest to you that decoupling is not a terribly 
big challenge and that it is quite a feasible scenario.
    However, let's assume that the country is unable to get a 
large cavity and is not able to decouple its device. What could 
it do? Well, I would suggest that one of the easiest things to 
do would be to put the device that it wanted to test on a 
barge, send it out to the ocean, let the detonation occur, and 
wait for the International Monitoring System and the New York 
Times and CNN to tell them what the yield was. That test would 
be very difficult to attribute, and perhaps impossible.
    So the bottom line is this comprehensive test ban is not 
effectively verifiable, and militarily significant testing can 
take place with very little or no risk of detection.
    Let's turn now to goal No. 4, which is constraining nuclear 
modernization. I would agree with administration officials that 
say that the CTBT will constrain the United States and others 
from being able to modernize their nuclear weapons. But I would 
see this as a bad thing, not a good thing. Let me give you some 
examples of three instances in which we would need possibly to 
modernize our nuclear forces.
    In one case, we might need to increase safety measures for 
our nuclear weapons. We cannot say what new technologies will 
be discovered in the future that would greatly enhance the 
safety of our nuclear weapons. It is like saying in 1949 we 
didn't know that airbags would come along in the 1990's for 
automobiles. Well, that technology was unknown then. The same 
kind of thing happens. Technology marches. You find out later 
that there is a new discovery that you could apply to an old 
problem of safety, and you need to be able to test to implement 
that.
    Second, modernization may be needed for new requirements. 
We say that we don't have any current new requirements that 
would make us need a new device design or testing. But that 
might change. There may be emerging threats. For example, 
Desert Storm taught us that we need to be able to strike deeply 
buried targets such as hardened underground bunkers, and so we 
modified the B-61-11 bomb. There may be future instances in 
which we would need to have a new or redesigned bomb.
    There may be emerging defensive technologies. There may be 
a quantum leap somewhere in which Russia or some other Nation 
may develop a technology that would render our weapons obsolete 
overnight, and we would need to be able to adjust our deterrent 
to meet that counter-force challenge.
    We would also need to adjust new delivery systems. Years 
ago we didn't anticipate the global positioning system--the 
satellite system that enables pinpoint accuracy, and that has 
revolutionized delivery systems. Well, what if there is a new 
discovery in the future that would enable us to have a more 
streamlined, lightweight, effective delivery system. If that is 
the case, we may need a new warhead to go with it. So we should 
not preclude U.S. ability to test should we need to change our 
nuclear arsenal.
    I would like to raise here another consideration which is 
not mentioned by the administration and I think is terribly 
important, and that is that the CTBT may actually promote 
nuclear proliferation. Nuclear testing has demonstrated to our 
allies, as well as to potential adversaries, that we have a 
strong commitment to our allies and that our nuclear deterrence 
is strong. Any decline in that confidence that we have or in 
our commitment to nuclear deterrence could signal to other 
nations that are now under our nuclear umbrella that we are not 
serious. And I would suggest to you that sophisticated 
nations--Japan, Germany, Italy, who knows which countries--
would revisit whether or not they might need their own nuclear 
option in the future.
    So the punchline is the CTBT will not meaningfully 
accomplish the five nonproliferation goals set out for it. It 
won't stop nations from designing and deploying nuclear 
weapons. It will not save the NPT. It will not detect 
militarily significant cheating. And the international norm 
that it would create is essentially not meaningful.
    Thus, the potential benefits of the CTBT to nuclear 
nonproliferation is meager. On the other hand, the CTBT will 
have a profound impact on the ability of the United States to 
assure that its nuclear weapons continue to be safe, reliable, 
and effective. Ratifying the CTBT will foreclose the ability of 
the United States to modernize its nuclear forces because U.S. 
compliance will be certain. So the limited political benefits 
of the CTBT are vastly outweighed by the costs to national 
security.
    I would like to take one moment to correct what I view are 
some omissions or errors in fact of statements that have been 
made here today. I will be very brief.
    One is that it was stated that we have had no need for 
nuclear testing since the 1992--since the moratorium began in 
1992. Sig Hecker, the former Director of Los Alamos National 
Laboratory, said in writing last fall that indeed there have 
been instances since 1992 that, had we not had a moratorium in 
effect, the U.S. technical community would have advised a 
nuclear test. That is the first point.
    The second is Senator Glenn pointed out that computers 
today are ``able to replace testing.'' Laboratory directors 
have said that computers will not replace testing. Virtual 
reality cannot replace reality. More importantly, the head of 
the advanced supercomputer program at Lawrence Livermore has 
said that the success of the initiative is uncertain and we 
won't know for quite some time whether or not the computer 
systems will perform as planned.
    Finally, it was noted that--a question was asked whether or 
not other nations had honored moratoria in the past. The answer 
is no, they have not. Not only did the Soviet Union break out 
of the moratorium, leaving us flat-footed in the 1958 to 1961 
time, but also, as former Secretary of Defense Perry testified 
before Congress in January of 1996, the current moratorium may 
have been broken by Russia. No further public details were 
given on that so I can't go beyond that, but it appears that 
there was suspicious activity then.
    There are other factual difficulties, but I will stop now 
and turn to questions. Thank you.
    Senator Cochran. Thank you very much, Dr. Bailey and Mr. 
Keeny.
    If NPT signatory nations like Iran, North Korea, or Iraq 
are intent on acquiring nuclear weapons, in what way would the 
Comprehensive Test Ban Treaty make the acquisition more 
difficult? Mr. Keeny.
    Mr. Keeny. As has been pointed out before, if the CTBT were 
in effect and they signed it, they would be forced back into 
developing weapons without testing, which, as we have 
recognized, is certainly a possibility. If they don't sign it, 
if they don't ratify it and become a party, they certainly have 
the legal right to test. But if the test ban has become really 
an international norm, it puts tremendous pressure on them. And 
as an example of that, it is interesting that in the past 
several countries that have pursued nuclear weapons, with the 
exception of India's test in 1974, Pakistan and Israel and 
South Africa did not conduct nuclear tests even though they 
legally would have been permitted to do so. Presumably, they 
felt for their own particular political reasons considerable 
pressure from the even more informal norm that this would be 
ill advised for them to do it.
    Senator Cochran. Dr. Bailey.
    Ms. Bailey. Senator, there is already an international norm 
against development of nuclear weapons. There is even a treaty. 
The Nuclear Non-Proliferation Treaty already accomplishes that. 
Iran and Iraq are both signatories. Iraq broke the treaty, and 
Iran is suspected to be doing it.
    The CTBT doesn't do anything that the NPT doesn't do, and 
there is no technical barrier that the CTBT presents.
    Senator Cochran. Do you think there is any legitimate 
reason for a declared nuclear power to develop more advanced 
nuclear weapons?
    Mr. Keeny.
    Mr. Keeny. No, I don't, and presumably that is a decision 
that the military and the laboratories have agreed to, that our 
present arsenal meets our present nuclear requirements. There 
are no major new ideas pressing to be explored, and it was 
interesting when the congressional legislation led to a 
moratorium on testing, the question came up whether there were 
some tests that had to be pursued. They had great difficulty 
pulling together a handful of tests that should be given 
consideration.
    We have a very mature nuclear stockpile, and no clear 
demands to change it, to elaborate on it, while we have a real 
interest in not seeing the other nuclear weapon states, for 
example, China, moving to catch up or possibly introducing new 
ideas that might destabilize a very satisfactory deterrent 
posture in which we find ourselves now in the post-Cold War 
environment.
    So I fail to see any pressing need on our part, and I am 
encouraged that the other nuclear weapon states were willing to 
go along with the test ban, suggesting that they, too, are 
satisfied with their general nuclear posture.
    Senator Cochran. Thank you.
    Dr. Bailey.
    Ms. Bailey. Absolutely, we need to maintain the flexibility 
to have nuclear weapons designs. There may be new threats, for 
example, chemical, or biological. What if we need to have a 
nuclear weapon that would detonate and burn up the biological 
agent in a particular bunker? We can't do that conventionally. 
We can do it with nuclear. What if we need a small tailor-made 
nuclear weapon to do that? We may discover new safety measures. 
We would need to do new designs then.
    Additionally, new technologies by Russia or China, in terms 
of defending against our nuclear arsenal, our nuclear 
deterrent, could cause us to have to re-tailor our arsenal. We 
need to maintain the flexibility to do that.
    Senator Cochran. Thank you.
    Senator Stevens.
    Senator Stevens. Mr. Keeny, do you think our nuclear 
deterrent is credible if we do ratify this treaty?
    Mr. Keeny. I think there is no question about it. We have 
an overwhelming nuclear deterrent, and with the new policy 
enunciated that we are focusing on a nuclear deterrent posture 
as opposed to a protracted war-fighting posture, numerically 
and qualitatively our stockpile is an overwhelming deterrent, 
and it clearly would continue to be so at a much lower level. 
There is no reason to think it could be any stronger if you 
modified the stockpile in any way whatsoever.
    Senator Stevens. Well, then, let's turn it over. Do you 
think it is credible if we maintain the full complement of our 
testing staff and maintain at 100 percent of capability our 
testing facilities? Do you think it is credible for us to say 
we are not going to test?
    Mr. Keeny. I understand----
    Senator Stevens. You know that the budget before us now 
says we are going to keep everything we have got. All the 
testing facilities will be maintained at 100 percent. All the 
staff will be kept at 100 percent. All of the readiness to test 
will be kept at 100 percent. But we will also have over here a 
whole new group that will perform all of the functions that 
have been outlined for a country that doesn't test.
    Now, is that credible, too?
    Mr. Keeny. Well, it may not be necessary, but it is 
certainly credible in the eyes of the rest of the world. I 
think that you must have a stewardship program of some sort, 
the ability to keep track of the status of existing weapons and 
to, as necessary refabricate components in the weapons or the 
entire weapon.
    I think the present Stewardship Program is extremely 
generous and is an insurance policy of extremely generous 
proportions. I think no one should have any concerns that with 
this amount of effort we are in a position to maintain the 
reliability and safety of the stockpile and would be in a 
position to very quickly accelerate our efforts if the regime 
does break down.
    So I would say, I think, the activity could be successfully 
done on a more modest level, but if the Congress is prepared to 
fund the program at this level and it gives additional 
reinsurance, I would certainly support it.
    I think other countries will do it on a much less ambitious 
level. Apparently, the Russian approach to stockpile 
reliability is based more on periodic refabrication of the 
weapons. We, by our science-based Stewardship Program, will 
monitor them extremely close and will be in a position to make 
minor modifications more frequently, and presumably have to do 
a complete refabrication on a much longer time scale.
    Clearly, a lot of the funding of this program is based in 
maintaining the laboratories to have an interesting and 
detailed program to attract and maintain competent people in 
the business, and this is a legitimate insurance policy. How 
much you are prepared to expend on this is a national security 
decision that should take into account your other security 
requirements.
    Ms. Bailey. Senator, may I comment on the question?
    Senator Stevens. Yes.
    Ms. Bailey. The Nevada test site cannot be maintained in 
ready condition absent some level of nuclear testing. Lawrence 
Livermore Laboratory Director Bruce Tarter has already said 
that we are 2 years away from being able to conduct a nuclear 
test right now. You can't keep the good people, the skill 
levels up and so forth, absent some kind of testing.
    So even with Safeguard F, for example, when the national 
security might determine that we needed to have a test, we 
would still be 2 years away from a test. Your question, which 
is a good one is: Does the maintenance of a test site not 
signal our ability to have a strong deterrent? The answer is no 
because we won't be able to keep that test site ready to go.
    Senator Stevens. Well, I don't think it would be maintained 
either, but the beginning part of the program indicates that we 
would keep both up--at a cost, I might add, of something like 
20 C-17's a year. The duplication and cost would build us 20 C-
17s.
    I have some real questions about this treaty now that I 
didn't have before when I have seen the quantification of what 
it is going to cost to maintain this dual track in this 
program, and that is why I came over here today. I seriously 
question this program now.
    Ms. Bailey. The big fear of people at my laboratory, the 
designers particularly, is that what we will get is the worst 
of both worlds; that is, that the stockpile stewardship--the 
lukewarm advocacy of it by arms control advocates will 
completely fade once the CTBT is ratified, if it is ratified, 
and then we won't have either testing or a Stockpile 
Stewardship Program.
    Senator Stevens. Well, I just feel that successive 
Congresses will edge and cut both sides of this program. 
Neither one of them will be creditable after a series of years, 
and that will mean we will be forced to rebuild our 
conventional systems at a much higher rate to maintain our 
credibility as a superpower. I really think this needs to be 
rethought, and I hope that you will continue the hearings, 
Senator.
    Senator Cochran. Thank you very much, Senator Stevens.
    Let me ask a question, Mr. Keeny, about the alternatives 
that might be available, feasible, to a ban on testing.
    First of all, what is the harm of testing? Is there any 
measurable realistic harm to the environment or the health and 
safety of American citizens for a low-level testing program to 
ensure reliability of weapons?
    Mr. Keeny. Well, the harm is international politics. I 
would say that unless one is extremely careless or incompetent, 
there is little danger to the health and safety of the American 
people from underground testing, properly conducted.
    The danger of this is that we are going to persuade the 
rest of the world we are interested in preventing them from 
having nuclear capabilities, but we have no intention ourselves 
to in any way constrain our own programs. And not only will we 
insist on indefinite continuation of nuclear armaments, but we 
will insist on continuing to improve and make them, at least in 
the eyes of the rest of the world, more dangerous to 
international security. And I think this is a problem we have 
in dealing with the international community.
    We would like to be in a position that we can get maximum 
support from the international community when situations such 
as Iraq or North Korea or whatever happens next come along that 
they will support sanctions, they will support our leadership 
role in assuring there will not be further nuclear 
proliferation, because that could be dangerous to the health of 
our friends and allies abroad and eventually to ourselves as 
well.
    That is the argument for the comprehensive test ban. One 
can imagine that if the whole regime collapses and testing 
becomes much more general and goes above ground and we have 
atmospheric testing, that would endanger the American citizens' 
health and well-being. But I think that is unlikely, or at 
least for the foreseeable future. So this should be looked on 
in terms of our broader international objectives to prevent the 
proliferation of nuclear weapons to other countries that we 
consider rogue countries or simply to countries--if the regime 
breaks down and many countries become nuclear-capable, it would 
be a very, very frightening world.
    I remember in my earlier days in this issue wise men 
generally were saying in the 1960's that there were going to be 
scores or many dozens of nuclear weapon states by the end of 
the 1970's, which is now a long time ago. They were wrong. And 
we were very fortunate. But I think if we found most of the 
industrialized states developing nuclear capabilities, which 
they could very easily, or many other countries developing more 
modest but capabilities that might be used, it would just be an 
extremely dangerous world. And if conflicts emerged, as they 
almost certainly will in the future, you have an increasing 
probability that there would actually be use of nuclear weapons 
and could well be in situations into which the United States 
would be drawn. And that would be very dangerous to the health 
of American citizens, in the military and otherwise.
    Senator Cochran. Dr. Bailey, what is the alternative to the 
Comprehensive Test Ban Treaty and the Non-Proliferation Treaty, 
both of which have had Republican and Democratic 
administrations alike support in one form or another and rely 
upon more and more as a way to ensure a norm of behavior that 
is consistent with the goal and hope that Mr. Keeny has 
expressed? What is the alternative?
    Ms. Bailey. Let's take each treaty separately, if you don't 
mind.
    The Nuclear Non-Proliferation Treaty is adhered to by 
states because they see it in their security interest to do so. 
They want to prevent nuclear proliferation in their regions and 
so forth. It is not because they are afraid of U.S. nuclear 
weapons or the declared nuclear weapons states. So I think that 
there isn't an alternative. States will continue to support the 
NPT because it is in their security interest to do so.
    Now, what is the alternative to the comprehensive test ban? 
I would suggest that we go back and reconsider what previous 
presidents, all presidents prior to President Clinton 
considered, and that is, a limitation in the Comprehensive Test 
Ban Treaty that would allow us to conduct some level of nuclear 
tests to keep our deterrent strong.
    Clinton was the first one that came out with zero yield, so 
the treaty is very different today than the one that we have 
been talking about for 40 years. I think that we will continue 
to need some level of nuclear testing not only if we choose to 
support stockpile stewardship, we need to be able to calibrate 
the stockpile stewardship; or if we choose to do rebuilds, we 
need to be able to prove the processes by which we will do the 
nuclear rebuilds. So testing is integral there. So the 
alternative, if you really want a CTBT, is to revisit it, go 
back and make it what previous presidents were doing, that is, 
a time-limited treat with some level of testing that will allow 
us to keep our deterrent strong.
    Senator Cochran. Mr. Keeny, what is your reaction to that?
    Mr. Keeny. Well, I would like to say a word about the 
statements that have been made a number of times here about 
previous presidents. I think it is simply not correct. When 
Eisenhower initiated the treaty on the discontinuance of 
nuclear weapons, it was for a comprehensive test ban. That was 
his intention, and that was what the formulation was.
    Now, it is true that the agreement was not reached. One 
never got to the point of defining what is a nuclear explosion. 
But the thinking about it was in terms of a de minimis 
definition initially. As problems developed, various other 
formulations were considered, one to deal differently with 
underground testing. At that time there had only been a single 
underground test, the Rainier test. So it was a new phenomenon. 
And then subsequently there was thought given to various types 
of threshold test bans. But both Eisenhower and Kennedy had 
addressed the proposition of a comprehensive test ban. But, of 
course, there was never an agreement reached and certainly 
nothing signed.
    Under President Carter, the pursuit was of a comprehensive 
test ban, although there, again, the negotiation, although it 
went quite far in some regards, never came to a question of the 
definition of nuclear explosion. There was never an agreed U.S. 
position, and there was nothing agreed to with the Soviet 
Union.
    So I think one should be very careful in saying this is a 
unique approach that was never conceived of. I do think it is 
true that when Clinton made a formal statement of having a zero 
yield, without specifically defining it, he went a step further 
than had been achieved in the previous negotiations. But I 
think you misread the objectives of Eisenhower, Kennedy, and 
Carter when you suggest that really the notion there was to 
continue testing at a level such that it would have any 
relevance to deterrence.
    Another point is on the testing that took place during the 
moratorium. Actually, I was indirectly involved because my 
boss, George Kistikowsky, who was Eisenhower's second science 
adviser, was a key person in the decision as to whether to go 
ahead with these very small yield tests and concluded this 
would be a reasonable thing to do. They were limited to a few 
pounds of yield, and it related to some very specific safety 
problems that existed at the time.
    But you must remember, these were unilateral moratorium 
that each side interpreted as they saw fit, and it was 
interesting how strict Eisenhower was in constraining any 
testing that was to be allowed under the moratorium.
    Senator Cochran. Thank you very much for that information 
and that perspective. That is very helpful.
    Dr. Bailey, are there any other comments or observations 
that you would like to make?
    Ms. Bailey. I would like to observe that that is not 
technically accurate. First of all, previous presidents called 
in the directors of national laboratories when this 
Comprehensive Test Ban Treaty was being considered, and they 
heard briefings and previous Presi- 
dents decided that the United States did need to maintain some 
level, some yield of testing. President Clinton was the first 
president that did not call in the laboratory directors and 
personally hear the briefing. Instead, it was done at the 
Secretary of Energy level. The briefings that took place about 
why we need testing were heard by Secretary O'Leary, and it was 
decided at that level, not at the presidential level.
    It is very important to realize that in previous 
negotiations of the comprehensive test ban, it was assumed that 
there would be some level of testing to enable the United 
States to keep its deterrent strong, safe, and reliable. And 
that is just a fact. It can be documented in history.
    Mr. Keeny. Well, I just don't know how you can say 
something is just a fact. The kind of testing that some people 
were discussing had little to do with maintaining our 
deterrent. You know, the suggestion that was made so frequently 
that a country with 12,000 strategic nuclear weapons and highly 
sophisticated and competent delivery systems is going to lose 
its deterrent capability overnight because of some possible 
problem with certain weapons, simply shows no comprehension of 
what deterrence is about. To suggest that any of these 
developments would suddenly have left the United States 
impotent and obsolete is simply way off the mark.
    I think when Eisenhower was pursuing the nuclear test ban, 
it was with the intention of stopping the development of 
nuclear weapons, which he saw as a threat to the survival of 
the United States and to the international community.
    I think a person it would be very useful for you to talk to 
would be General Andy Goodpastor, who, as you know, was 
Eisenhower's----
    Senator Cochran. We have had him before the Subcommittee.
    Mr. Keeny [continuing]. Personal military aide and very 
close to him personally. And I think he would say that at the 
beginning Eisenhower thought nuclear weapons were just another 
much more powerful and dangerous type of weapon, military 
armament, but that with the rapid escalation during his term 
and the introduction of thermonuclear weapons and the sort of 
open-ended expansion that seemed available, he was deeply 
seized with the danger of the situation and really sought very 
sincerely at that early date to try to stop the development of 
further nuclear weapons, and saw the one handle on it at that 
time seemed to be through testing, because everyone felt that 
with increasingly high-yield weapons, the tests were 
indispensable to continue this progress.
    But I would strongly suggest that you talk with General 
Andy Goodpastor, because I think he is one of the few people 
who is still around who can reflect what Eisenhower's actual 
concerns about these matters were.
    Now, I think it is true the laboratory directors always in 
the past have basically opposed a test ban, and I think most of 
them would be frank to say so. Their job was to make nuclear 
weapons, and they wanted--they had ideas and they wanted to 
continue to improve them.
    Senator Cochran. Do you suppose that the generosity of this 
Stockpile Stewardship Program may be the price that we pay for 
the support of the laboratory directors now for the 
Comprehensive Test Ban Treaty?
    Mr. Keeny. Well, I wouldn't want to put it that way. I 
think a more generous----
    Senator Cochran. I didn't put it that way, either. I asked 
the question.
    Mr. Keeny. Well, I think it did, but I think it is the 
price for their support. But to put it in a little more 
generous terms, I think it met their concerns about this narrow 
question of stockpile reliability and safety. I think it is 
unfair to say they just did it because they wanted to maintain 
a large and expensive establishment. I think the program did 
buy their support in that it answered the question that they 
were seized with: How can I, as a responsible manager of the 
scientific program, say these weapons are reliable and safe 
unless I have a lot of tools at my disposal? And having 
received them, I think they are clearly satisfied, and I think 
this is the first time that there has been clear support of all 
of the laboratory directors for the test ban. And it reflects 
on the one hand the Stewardship Program, but it also reflects 
an honest man's assessment of the fact that we have a very 
mature stockpile, we have a very secure deterrent, and we are 
not faced with an opponent of uncertain dimensions, as the 
Soviet Union was at the height of the Cold War.
    So I acknowledge that the laboratory directors have done a 
responsible and honest appraisal of the situation and have 
decided that their responsibilities can be met without 
continuing an aggressive development program.
    Senator Cochran. Thank you.
    Senator Glenn.
    Senator Glenn. Thank you, Mr. Chairman. I apologize, and I 
apologize to our witnesses today that I had to be in and out so 
much. I have been out more than in, I guess today. But I had 
some other things I couldn't avoid, so I am sorry I wasn't 
here.
    I have been impressed with the fact of what you just 
mentioned that the heads of our three major labs involved with 
this, Lawrence Livermore and Sandia and Los Alamos, all who are 
certainly highly technically competent people, favor this as 
long as the safeguard--or so long as the program is underway, 
the safeguard program to make sure that everything is still in 
working order if we happen to need it.
    We also have the statements by four of the former Joint 
Chiefs of Staff--Shalikashvili, Powell, Crowe, and Jones--and 
they certainly are people who look at the technical background 
of this thing and are very happy with it. So I just think that 
this is the way we ought to go, and I am sorry I wasn't here 
for all the discussion previously, but I just wanted to make 
sure that my views were brought forward on that.
    I noted in particular the statement by Dr. Tarter at 
Lawrence Livermore, and his statement was that, ``We have 
maintained the nuclear weapons stockpile without nuclear 
testing since 1992 when the United States entered into a 
nuclear test moratorium. President Clinton has since signed a 
comprehensive nuclear test ban treaty aimed at ending nuclear 
explosive testing on a worldwide basis. Three important factors 
have enabled us to meet the chal- 
lenge to date: First, the weapons intended for the enduring 
stockpile all have good pedigrees; they went into the stockpile 
with blue-chip credentials. To date, we have seen no signs of 
catastrophic aging; however, vigilance is required because 
nuclear weapons age in very dynamic, not necessarily 
predictable ways. Both the difficult task of assessing an ever 
older stockpile and the new challenge of certifying refurbished 
weapons increase the complexity of stockpile stewardship as 
time passes.'' That is his first point.
    Second, ``we have been able to meet the challenge because 
of the expertise residing in the technical staff, hands-on 
nuclear design, engineering, and test experience accumulated 
through the development of weapons now in the stockpile, but 
that experience base is also aging. So we are taking important 
steps to archive that experience and make prudent use of it 
while we have it. That includes working with the next 
generation of scientists and engineers to tend to the current 
needs of the stockpile and lay the foundation for the long-term 
program for stockpile stewardship.''
    Third point: ``We have worked closely with Assistant 
Secretary Vic Reese and others in defense programs to design 
the overall program and provide the technical basis for its 
ambitious goals. We achieved what capabilities the program 
needs by when and worked throughout the 1990's to achieve, 
enabling scientific and engineering advances. Steady technical 
progress on a number of fronts moves us closer to the long-term 
goals of the Stockpile Stewardship Program.''
    So the points he makes--and certainly there is no one more 
experienced in nuclear matters than the Lawrence Laboratory out 
there, and the head, the director of it, Dr. Tarter. So I think 
when we have that and the former Chairmen of the Joint Chiefs 
of Staff, I come down on the side that I think it is safe to go 
ahead with this. And I don't ask that as a question, obviously. 
It is more a statement than anything else, but I wanted to get 
my views on record.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Glenn.
    Dr. Bailey, we were talking about the twin programs of 
maintaining a testing capability at the same time we have the 
Stockpile Stewardship Program and the attendant costs that that 
is going to require us, as Appropriations Committee members, 
and others to deal with. Senator Stevens made a very compelling 
statement about the seriousness of that as a dilemma.
    What is your reaction to the situation in terms of trying 
to design a program for maintaining the deterrent that we have 
to have in view of the facts that we find existing around the 
world in terms of nuclear threats that threaten our security 
interest? Are we getting into a position where we are 
overreacting to the threat or to the possible deterioration of 
our deterrent by spending these huge sums of money? I don't 
know whether you have looked into the program that is outlined, 
but it is a very costly program at the laboratories. And I 
didn't realize that, as Senator Stevens said, we were also 
going to be maintaining the same kind of capability of testing 
and having the people in place and all of that, facilities, as 
if there were no test ban in effect.
    Is all of that necessary?
    Ms. Bailey. The laboratory directors agreed with the 
statement that Senator Glenn has set out on the basis that 
there would be a Stockpile Stewardship Program and equally, if 
not more important, that there would be Safeguard F--that is, 
the national security clause escape clause that would allow us 
to conduct a nuclear test if we needed to.
    They said at the same time that this would not be as good, 
technically, as nuclear weapons testing. It would never give 
you the kind of confidence in the reliability and safety of 
your weapons that testing would, but that we could make do with 
it. It would be sufficient, in other words.
    If you take away either of those two points, either the 
Stockpile Stewardship or the ability to test in an emergency, I 
think that you would lose the laboratory directors' support. 
You would have an unacceptable level of erosion in our 
confidence in the stockpile.
    Now, if your question is do we need to have confidence in 
the stockpile, I would say yes, for two basic reasons. We still 
face a capability in Russia and emerging in China that is 
extremely powerful. So while intent matters a great deal, 
capability matters even more. And as we have heard today, 
Russia is actually increasing its reliance on nuclear 
deterrence and increasing, I would add, its nuclear weapons 
capabilities. And I can go into that if you wish.
    The other part of it is that there are proliferant nations 
developing or having already acquired weapons of mass 
destruction against which our nuclear deterrent may be the only 
effective response.
    So, yes, we still need the deterrent because the threats 
are there. The directors of the technical laboratories have 
said we either need to test or, at a bare minimum, we need to 
have the escape testing clause coupled with the Stockpile 
Stewardship Program.
    Now, having said all that, my personal view is that 
stopping testing is a political imperative. It is not something 
that is technically driven. If we need to test in order to 
prove stockpile stewardship or to maintain our deterrent, it 
seems to me that we need to do a good scrub on the costs versus 
benefits of that political imperative. And if it is going to be 
extremely costly in terms of our deterrent and in terms of 
finances, is it really worth the political gain that you would 
get by satisfying the worldwide clamor for us to cease testing? 
The nonproliferation goals that the administration has set out 
for this treaty cannot and will not be accomplished.
    And I think that is the key. We need to keep our eye on the 
key. And the key is that you can't meet the nonproliferation 
goals of this treaty.
    Senator Cochran. Well, I think this has been a very helpful 
and certainly informative hearing. I have learned a lot, and I 
know that the others who have had an opportunity to come hear 
the testimony and the questions and answers have learned a 
great deal as well. While it is not a requirement of non-
government witnesses to respond to questions that are submitted 
after a hearing, I have been told that there may be Senators on 
the Subcommittee that would like to have the opportunity to 
submit questions to this panel. And if you have the opportunity 
to receive those questions, I hope you could respond if you 
can. We can't require you to, but that has been a request I 
have received, and I submit that to you for your consideration.
    This concludes the hearing. We appreciate so much the 
participation of our outstanding witnesses who have testified 
today. We will continue to review the implications for 
nonproliferation with respect to the Comprehensive Test Ban 
Treaty and other issues in this Subcommittee during the balance 
of the year. For the time being, though, the hearing will be in 
recess.
    [Whereupon, at 4:24 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


[GRAPHIC] [TIFF OMITTED] TH699.001

[GRAPHIC] [TIFF OMITTED] TH699.002

[GRAPHIC] [TIFF OMITTED] TH699.003

[GRAPHIC] [TIFF OMITTED] TH699.004

[GRAPHIC] [TIFF OMITTED] TH699.005

[GRAPHIC] [TIFF OMITTED] TH699.006

[GRAPHIC] [TIFF OMITTED] TH699.007

[GRAPHIC] [TIFF OMITTED] TH699.008

[GRAPHIC] [TIFF OMITTED] TH699.009

[GRAPHIC] [TIFF OMITTED] TH699.010

[GRAPHIC] [TIFF OMITTED] TH699.011

[GRAPHIC] [TIFF OMITTED] TH699.012

[GRAPHIC] [TIFF OMITTED] TH699.013

[GRAPHIC] [TIFF OMITTED] TH699.014

[GRAPHIC] [TIFF OMITTED] TH699.015

[GRAPHIC] [TIFF OMITTED] TH699.016

[GRAPHIC] [TIFF OMITTED] TH699.017

[GRAPHIC] [TIFF OMITTED] TH699.018

[GRAPHIC] [TIFF OMITTED] TH699.019

[GRAPHIC] [TIFF OMITTED] TH699.020

[GRAPHIC] [TIFF OMITTED] TH699.021

[GRAPHIC] [TIFF OMITTED] TH699.022

[GRAPHIC] [TIFF OMITTED] TH699.023

[GRAPHIC] [TIFF OMITTED] TH699.024

[GRAPHIC] [TIFF OMITTED] TH699.025

[GRAPHIC] [TIFF OMITTED] TH699.026

[GRAPHIC] [TIFF OMITTED] TH699.027

[GRAPHIC] [TIFF OMITTED] TH699.028

[GRAPHIC] [TIFF OMITTED] TH699.029

[GRAPHIC] [TIFF OMITTED] TH699.030

                                <all>

</pre></body></html>
